HHS/OIG Audit:"Report of Examination Of The Administrative Costs Incurred Under The Health Insurance For The Aged And Disabled (Medicare), Empire Medicare Services, For The Periods, Part A - October 1, 1995 Through September 30, 1999, and Part B - October 1, 1996 Through September 30, 1999,"(A-02-00-01038)
Department of Health and Human Services
"Report of Examination Of The Administrative Costs Incurred Under The Health Insurance For The Aged And Disabled
(Medicare), Empire Medicare Services, For The Periods, Part A - October 1, 1995 Through September 30, 1999, and Part B
- October 1, 1996 Through September 30, 1999," (A-02-00-01038)
February 7, 2002
Complete
Text of Report is available in PDF format (7.2 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Conrad and Associates, L.L.P., certified public accountants, under the contract with the U.S. Department of Health and
Human Services (HHS), performed a financial and compliance audit of expenditures claimed by Empire Medicare Services (EMS)
related to administration of the Medicare Part A and Part B programs.  The audit included such tests necessary to
assure that costs charged to Medicare were allowable and allocable and were provided in an economic and efficient manner.  Minor
questioned costs of $600 for Part A and $2,650 for Part B resulted from the audit.